                                                EMPLOYMENT AND
                                                TRAINING ADMINISTRATION



Office of Inspector General—Office of Audit






                                                RECOVERY ACT: EMPLOYMENT AND TRAINING
                                                ADMINISTRATION GRANT ISSUANCE AND
                                                MONITORING POLICIES AND PROCEDURES FOR
                                                DISCRETIONARY GRANTS INCLUDING GREEN
                                                JOBS ARE COMPREHENSIVE BUT FUNDING
                                                CHALLENGES THREATEN THE QUALITY OF
                                                FUTURE MONITORING ACTIVITIES
                                                 This audit was performed by WithumSmith+Brown PC, CPAs, under contract to the
                                                 Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                                 Inspector General.



                                                                         _____________________________
                                                                         Assistant Inspector General for Audit




                                                                                    Date Issued:       September 30, 2010

                                                                               Report Number:              18-10-013-03-390
U.S. DEPARTMENT OF LABOR                                     September 2010
OFFICE OF INSPECTOR GENERAL
                                                             RECOVERY ACT: EMPLOYMENT AND
Office of Audit                                              TRAINING ADMINISTRATION GRANT
                                                             ISSUANCE AND MONITORING POLICIES AND
                                                             PROCEDURES FOR DISCRETIONARY GRANTS
BRIEFLY…                                                     INCLUDING GREEN JOBS ARE
Highlights of Report Number: 18-10-013-03-390, to the        COMPREHENSIVE BUT FUNDING
Assistant Secretary for Employment and Training.             CHALLENGES THREATEN THE QUALITY OF
                                                             FUTURE MONITORING ACTIVITIES
WHY READ THE REPORT
Congress enacted the American Recovery and
                                                             WHAT OIG FOUND
Reinvestment Act of 2009 (Recovery Act) to promote
                                                             The OIG found ETA announced, evaluated, and
economic recovery and assist those most affected by
                                                             selected the grants in accordance with merit-based and
the recession. The Department of Labor (DOL) received
                                                             Recovery Act criteria; and developed comprehensive
$750 million primarily for competitive grants to train and
                                                             monitoring guidelines and procedures. Also, grant
place workers in green jobs and health care jobs. Funds
                                                             agreements required adherence to Recovery Act
provided by the Act and used to hire staff to monitor
                                                             reporting requirements. However, funds provided by the
these grants will expire on September 30, 2010.
                                                             Recovery Act to ETA and used to monitor the “green”
                                                             and health care grants will expire on
The U.S. DOL Office of Inspector General (OIG)
                                                             September 30, 2010. As a result, ETA is planning to
audited Employment and Training Administration’s
                                                             assign monitoring of the 244 Recovery Act grants to
(ETA) Recovery Act competitive grant solicitation,
                                                             existing non-Recovery Act staff that already have full
award and monitoring processes; and reviewed the
                                                             workloads. These funding challenges threaten the
agency’s budget request for $85 million to carry out its
                                                             quality of future ETA monitoring activities. OIG noted
green innovation project during Fiscal Year 2011. The
                                                             that ETA does not have a comprehensive policy
Recovery Act targeted $500 million for green grants and
                                                             framework to guide its “green” initiatives and grant
the remaining $250 million for health care sector jobs
                                                             programs. Because of the dynamic nature of the green
and high-growth jobs in emerging industry sectors. Of
                                                             issue, such a framework would be a “living document,”
the $750 million, the OIG reviewed $717 million in
                                                             to be updated as the “green” industry evolves.
grants awarded in time to be included in our review.

WHY OIG CONDUCTED THE AUDIT                                  WHAT OIG RECOMMENDED
Our audit objectives were to answer the following            To better ensure the $717 million in Recovery Act funds
questions:                                                   for green and health care grants are not at risk of being
                                                             spent in ways inconsistent with Congressional
1. 	 Did ETA use merit-based selection criteria, as          requirements, the OIG recommends the Assistant
     required by the Office of Management and Budget         Secretary for Employment and Training take actions to
     (OMB), in awarding $717 million in Recovery Act         continue to identify and prioritize workloads and funding
     funds for competitive grants for worker training and    levels to ensure the agency can adequately monitor
     placement in high-growth and emerging-industry          these grants. Furthermore, to ensure ETA can move
     sectors?                                                forward on and achieve the goals of its green jobs
2. 	 Did ETA consider “a demonstrated or potential           initiatives, we recommend the Assistant Secretary for
     ability to deliver programmatic results,” in awarding   Employment and Training take the necessary actions to
     competitive grants under the Recovery Act, as           provide a comprehensive policy framework for carrying
     required by OMB Memo M-09-15?                           out its responsibilities in the green jobs area.
3. 	 Did ETA’s guidance during grant solicitation and
     post solicitation activities, address Congress’         ETA acknowledged that funding issues will impact
     requirements?                                           monitoring efforts, but stated it is leveraging available
4. 	 Did the grant agreements require adherence to           resources to minimize the impact. ETA stated it is
     Recovery Act reporting requirements?                    premature to conclude that a comprehensive policy
                                                             framework is needed or feasible to produce on the
READ THE FULL REPORT                                         green jobs issue. The OIG continues to believe this
To view the report, including the scope, methodology,        approach is necessary to maximize the effectiveness
and full agency response, go to:                             and efficiency of federal funds expenditures in this
http://www.oig.dol.gov/public/reports/oa/2010/18-10-         emerging job sector.
009-03-370.
                                                                         Prepared by WithumSmith+Brown
                                            For the U. S. Department of Labor – Office of Inspector General



Table of Contents 

Independent Auditor’s Report...................................................................................... 1
 


Results in Brief .............................................................................................................. 2
 


Objective 1 — Did ETA use merit-based selection criteria, as required by


              OMB, in awarding $717 million in Recovery Act funds for 

              competitive grants for worker training and placement in 

              high-growth and emerging-industry sectors? ................................... 5
 


          ETA awarded the Recovery Act competitive grants using merit-based 

          evaluation criteria. ................................................................................................ 5
 


Objective 2 — Did ETA consider “a demonstrated or potential ability to 

              deliver programmatic results,” in awarding competitive 

              grants under the Recovery Act, as required by OMB Memo 

              M-09-15? ................................................................................................ 9
 


          ETA considered a demonstrated or potential ability to deliver 

          programmatic results in awarding 244 Recovery Act competitive grants.............. 9
 


Objective 3 — Did ETA’s guidance during grant solicitation and                          

              post-solicitation activities address Congress’ requirements 

              regarding use of these funds? .......................................................... 10
 


          ETA’s guidance during the grant solicitation and post-solicitation activities 

          addressed Congress’ requirements regarding the use of the funds; 

          however, funding challenges threaten ongoing monitoring activities. 

          Furthermore, DOL lacks a comprehensive policy framework to guide its 

          multifaceted green jobs initiatives....................................................................... 10
 


Finding 1 — Issues with Funding Threatens Effective Monitoring of Recovery Act 

                   Competitive Grants ........................................................................ 14



Finding 2 — DOL Lacks a Comprehensive Policy Framework to Guide its Multifaceted 

                 Green Jobs Initiatives..................................................................... 16
 

Objective 4 — Did grant agreements require adherence to Recovery Act


              reporting and tracking requirements?.............................................. 16
 


          ETA did require adherence to the Recovery Act reporting and tracking 

          requirements in the grant agreements................................................................ 16
 





                                            Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                                           Draft Report No. 18-10-013-03-390
                                                                      Prepared by WithumSmith+Brown
                                         For the U. S. Department of Labor – Office of Inspector General

Exhibits

Exhibit 1 Pathways Out of Poverty Grants Awarded ..................................................... 21
 

Exhibit 2 State Labor Market Information Grants Awarded ........................................... 23
 

Exhibit 3 Energy Training Partnership Grants Awarded ................................................ 25
 

Exhibit 4 Green Capacity Building Grants Awarded ...................................................... 27
 

Exhibit 5 State Energy Sector Partnership Grants Awarded ......................................... 29
 

Exhibit 6 Healthcare, Other High-Growth & Emerging-Industry Grants Awarded.......... 31
 


Appendices

Appendix A Background................................................................................................ 35
 

Appendix B Objectives, Scope, Methodology, and Criteria ........................................... 39
 

Appendix C Acronyms and Abbreviations ..................................................................... 43
 

Appendix D ETA Response to Draft Report .................................................................. 45
 





                                         Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                                        Draft Report No. 18-10-013-03-390
                                                                                                          Prepared by WithumSmith+Brown PC
WithumSmith+Brown                                                                For the U. S. Department of Labor – Office of Inspector General
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA
301 585 7990 . fax 301.585.7975                                Septem
                                                                 eptember
                                                                      ber 30, 2010
www.withum.com                                                 Independent Auditor’s Report
Additional Offices in New Jersey, New York
Pennsylvania, Florida and Colorado

                                                               Ms. Jane Oates
                                                               Assistant Secretary
                                                                 for Employment and Training
                                                               U.S. Department of Labor
                                                               200 Constitu
                                                                   Constitution Avenue, NW
                                                               Washington, D.C. 20210

                                                               The American Recovery
                                                                                Recovery and Reinvestment Act of 2009 (Recovery
                                                               Act) was passed February 17, 2009, to preserve and create jobs,
                                                               promote the nations’ economic recovery, and to assist those most
                                                               impacted by the recession. The Act provided $750 million for
                                                               competitive grants to high-growth and emerging-industry sectors;
                                                               primarily for green and health care job training and placement. Of
                                                               that amount, $500 million was targeted for green job training and
                                                               careers in the energy efficiency and renewable energy sectors. The
                                                               remaining $250 million was for projects that prepare workers for
                                                               careers in the health care sector. Of the $750 million, the
                                                               Department of Labor (DOL) awarded $717 million in these grants in
                                                               time to be iin
                                                                            ncluded in our review. The Act allowed DOL to use one
                                                               percent of the overall grant funds amount of $4.72
                                                                                                              $4.72 billion, for the
                                                               administration, management, and oversight of the programs,
                                                               grants, and activities, including the evaluation of the use of such
                                                               funds. These funds were made available for obligation through
                                                               September 30, 2010. ETA has requested funds in its FY 2011
                                                               budget request for additional staff resources for continued
                                                               Recovery Act grants management.

                                                               The Employment Training Administration (ETA) issued six separate
                                                               grant competitions designed to support the training and
                                                               employment placement needs of employers and indivi   individuals and
                                                               focused on training and teaching workers in the energy efficiency,
                                                               renewable energy, health care, and other high-growth areas. Our
                                                               audit objectives were to determine if (1) ETA used merit-based
                                                               selection criteria, as required
                                                                                      required by the Office of Management and
                                                               Budget (OMB), in awarding $717$717 million
                                                                                                    million in Recovery Act funds for
                                                               competitive grants for worker training
                                                                                               training and placement in high-growth
                                                               and emerging-industry sectors; (2) ETA considered “a
                                                               demonstrated or potential ability to deliver
                                                                                                      deliver programmatic results,” in
A member of HLB International. A world-wide organization of accounting firms and business advisers.


                                                                                  Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                                                    1                            Draft Report No. 18-10-013-03-390
                                                                     Prepared by WithumSmith+Brown
                                        For the U. S. Department of Labor – Office of Inspector General

awarding competitive grants under the Recovery Act, as required by OMB Memo M-09-
15; (3) ETA’s guidance during grant solicitation and post-solicitation activities, including
monitoring, addressed Congress’ requirements regarding use of these funds; and (4)
grant agreements required adherence to Recovery Act reporting and tracking
requirements.

The audit included a review of grant documents and data available from ETA’s Office of
Workforce Investment, Office of Policy, Development & Research and the Office of
Regional Management, as well as external sources. We also reviewed relevant
legislation and Recovery Act requirements for this grant program. The audit included a
random sample of all grants made under the six Recovery Act competitive grant
solicitations. The audit also included structured interviews administered on a nationally
projectable statistical sampling basis to grant monitors responsible for oversight of the
Recovery Act competitive grants for high-growth workers. The interviews were
completed in August and September 2010.

WithumSmith+Brown (WS+B) conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Our objectives, scope, methodology, and
criteria are detailed in Appendix B.

RESULTS IN BRIEF
Results in Brief
In summary, ETA announced, evaluated and selected the grants under our review in
accordance with relevant criteria; and developed comprehensive monitoring guidelines
and procedures. However, funds provided by the Recovery Act to ETA to, among other
things, 1 monitor Recovery Act grants will expire on September 30, 2010, resulting in
ETA assigning the 244 grant monitoring workload across existing non-Recovery Act
monitors that already have full workloads.

On the first objective, ETA awarded the Recovery Act competitive grants using the
merit-based evaluation criteria stated in the six grant announcements including specific
green and health care jobs language in the Act. Our review of the panel evaluation
process noted that the panel process included an evaluation of the applicants using
merit-based criteria. Interviews of the grant officers and a review of the grant selection
memos found the panel evaluation scores were the primary basis for selection.

As required by OMB, ETA considered a demonstrated or potential ability to deliver
programmatic results in awarding the Recovery Act competitive grants. Our review of
the panel process and the grant announcements found that ETA selected the Recovery

1
  The Act permitted DOL to use one percent of these funds for administration, management, and oversight of the
programs, grants, and activities funded by the specific appropriation, including the evaluation of the use of such
funds.

                                        Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                   2                   Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

Act grantees using selection criteria designed to identify projects for funding that had a
demonstrated or potential ability to deliver programmatic results.

ETA’s guidance during the grant solicitation and post-solicitation activities addressed
Congress’ requirements regarding the use of the funds. The guidance specified in the
green job and the health care grant solicitations addressed the specific Recovery Act
requirements for (1) energy efficiency and renewable energy worker training programs,
and (2) projects focused on preparing workers for careers in the health care sector.
However, funding challenges threaten ongoing monitoring activities. Furthermore, DOL
lacks a comprehensive policy framework to guide its green jobs initiative and help
ensure the grants addressing green jobs are as effective as possible.

   •		 In reviewing post-solicitation activities, we found the Recovery Act funds ETA
       used, in part, to fund DOL staff for grant monitoring activities will expire on
       September 30, 2010, and that most Recovery Act-funded grant monitors will be
       released. As of September 20, 2010, ETA plans to obligate the remaining $4
       million of funds provided by the Recovery Act to, among other things, monitor the
       $4.72 billion in Recovery Act grants by awarding contracts for support activities to
       assist the grant monitors. ETA program officials and Regional Administrators
       told us they plan to implement strategies to do more with less and will assign the
       Recovery Act monitors’ workload to non-Recovery Act grant monitors. The
       reduction in staff resources and funding for travel costs for monitors, will
       negatively impact ETA’s ability to fully execute the Recovery Act grantee
       monitoring and oversight functions as originally planned and evaluated positively
       by our audit. Lack of monitors will likely result in less contact with grantees, in
       general, and less frequent visits to the grantee sites. Regional Office
       management told us they will ensure risk is continually assessed for the
       grantees, and those with higher-risk will receive priority attention.
   •		 While reviewing the green job projects of the Recovery Act high-growth grants,
       we noted that ETA has no comprehensive policy framework to guide its green
       initiatives and grant programs. Because of the dynamic nature of the green issue,
       this framework would assist in carrying out future responsibilities concerning
       green issues. DOL has requested $85 million to fund the second year of the
       green jobs innovation project. These funds will build upon the initial investments
       in green jobs innovation begun in 2010 and further address the workforce needs
       associated with green jobs for FY 2011. Without a comprehensive policy
       framework, DOL will lack a needed programmatic definition to guide its green
       jobs initiative and help ensure the grants addressing green jobs are as effective
       as possible.

Finally, we found ETA included in the grant notifications that the grantees were required
to comply with Recovery Act reporting and tracking requirements. To assist the
grantees in meeting the reporting requirements, ETA sponsored technical assistance
activities designed to explain the Recovery Act reporting and tracking requirements and
how to comply with them. These activities included DOL and OMB webinars, a


                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          3	                  Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

Recovery Act reporting workshop held in Washington, D.C., and ongoing technical
assistance calls and support from ETA program staff.

To ensure the nearly $717 million in green and health care grant funds are not at risk of
not being spent as intended by Congress, we recommend the Assistant Secretary for
Employment and Training take the necessary actions to continue to identify and
prioritize workloads and funding levels to ensure grants are adequately monitored.
These efforts may or may not need to focus exclusively on Recovery Act funding
streams.

Additionally, to ensure ETA is equipped to move forward on its green job initiatives and
maximize its green job grant programs, we recommend the Assistant Secretary for
Employment and Training take the necessary actions to provide a comprehensive policy
framework for its training and employment programs in carrying out its responsibilities in
the green jobs area.

ETA RESPONSE

ETA provided comments on our report acknowledging that funding has impacted the
future monitoring activities but stated it is taking actions to minimize this impact with
available resources. ETA disagreed that a comprehensive green policy framework is
necessary or feasible.

ETA’s response is included in its entirety as Appendix D.

AUDITOR CONCLUSION

OIG will follow up on the actions ETA takes in the coming months to ensure grants are
adequately monitored.

ETA is involved in numerous green initiatives as indicated in its response, but lacks a
comprehensive policy framework that addresses all of its efforts in light of the
Department’s mission to provide employment and training services in this developing
sector. With hundreds of millions of dollars dedicated to green jobs innovation and
green grants, the lack of such a framework increases the risk these funds will not be
spent as effectively and efficiently as possible.

The OIG has made technical changes in the report based on comments ETA provided
in response to our draft report.




                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          4                   Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

RESULTS AND FINDINGS

Objective 1 — Did ETA use merit-based selection criteria, as required by OMB, in
              awarding $717 million in Recovery Act funds for competitive grants
              for worker training and placement in high-growth and
              emerging-industry sectors?

       ETA awarded the Recovery Act competitive grants using merit-based evaluation
       criteria.

We audited the merit-based selection process followed by ETA in awarding 244 grants
across six Workforce Investment Act (WIA) competitive grants programs for high-growth
workers:
       •      Pathways Out of Poverty
       •      State Labor Market Information Improvement
       •      Energy Training Partnership
       •      Green Capacity Building
       •      State Energy Sector Partnership
       •      Healthcare and Other High-Growth and Emerging-Industries

On March 20, 2009, the White House, Office of the Press Secretary, issued a
memorandum to the heads of executive departments and agencies on the subject of
ensuring responsible spending of Recovery Act funds 2 . Section 1.6 states that to ensure
merit-based decision making for grants and other forms of Federal financial assistance
under the Recovery Act: (a) Executive departments and agencies shall develop
transparent, merit-based selection criteria….

WS+B reviewed policies and procedures followed by ETA during the grant selection
process. We randomly sampled 45 of the 244 competitive grants awarded across the
six grant programs and tested each grant to determine whether 1) the application was
received after the publication of the announcement and prior to the grant closing date;
2) the panel results (ranking scores) were utilized in the final selection; 3) additional
factors were utilized in the final selection process; 4) the grantee was included for final
selection; and 5) the award notification was posted on the ETA homepage.

To assess the use of merit-based criteria, we tested the panel evaluation process.
Under the ETA panel process, grant applications were evaluated by independent panels
of three, including one Federal employee, and scored based on a weighted-average
evaluation of the factors listed in the grant announcements. We reviewed the panel
documentation applicable to the grants in our sample to determine whether panel
results (ranking scores) were utilized in the final selection. Zero errors were noted in this
process.

2
 OMB Memorandum M-09-15, Updating Implementing Guidance for the American Recovery and
Reinvestment Act of 2009 (April 2009)

                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          5                   Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

For each of the six grant programs, we interviewed the grant officers and reviewed the
Solicitations for Grant Applications (SGAs) selection criteria, grant selection memos and
the selection methodology for the awards. The selection criteria and other
considerations utilized by the panels in the evaluation process varied for each of the
grant programs. Evaluation scores are the primary basis for selection; however, other
factors may be utilized by the grant officer in the final selection. The following
procedures were discussed with the ETA solicitor who concurred with the procedures
followed in awarding these competitive grants.

Pathways Out of Poverty:
The Pathways Out of Poverty program funded projects that provide training and
placement services that leads to a pathway out of poverty and into employment.
Training and placement services under this program are to prepare workers for careers
in the energy efficiency or renewable energy industry.

From a list of 444 total eligible applicants, 38 were selected for funding totaling
approximately $147.8 million. To determine which of the grant applicants would receive
Recovery Act funding, the 444 eligible applicants were scored by a review panel against
the evaluation criteria stated in the SGA. (See Exhibit 1 for a list of awardees.)

While scores were the primary basis for selection, other factors were considered,
resulting in some of the selections being made out of rank order within the scoring
range. These factors included urban, rural, geographic balance, applicant types, the
availability of funds, and consideration of proposals that were most advantageous to the
government.

Funding was not awarded to more than one organization within the same city to avoid
competition for the same service areas and to ensure geographical balance. An
emphasis was placed to avoid the duplication of services of other grant types to the
extent possible within a single geographic area. Additionally, one grantee was
determined to be advantageous to the government for selection because no other tribal
organizations were previously included, and it represented an expansion of areas being
serviced with a significantly high poverty rate.

State Labor Market Information Improvement:
The State Labor Market Information Improvement program funded states and
multi-state consortiums allowing grantees to collect, analyze, and disseminate labor
market information. This funding was meant to collect, analyze and disseminate labor
market information and to enhance the labor exchange infrastructure for careers within
the energy efficiency and renewable energy industries.

From the list of 45 total eligible applicants, 30 were selected for funding totaling
approximately $48.8 million scored by the review panel based on the evaluation criteria
stated in the SGA. (See Exhibit 2 for a list of awardees.)



                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                         6                   Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

The panels' scores served as the primary basis for selection of applications for funding
in conjunction with other factors such as geographic balance. All eligible applications
were reviewed and assigned scores ranging from a high of 99 to a low of 42. A total of
30 applicants with a score of at least 70 out of 100 were selected for award including 24
individual state grants and 6 state consortia grants. The selections represented a
reasonable geographic balance.

Typically applications scoring below 80 are not funded; however, the grant officer and
program staff discussed the issues to determine if these applicants could satisfactorily
perform the activities outlined in their proposals. ETA staff determined that with
improvements to their technical proposal coupled with technical assistance, the
potential grantees would be able to implement their projects successfully. These
applicants received conditions on their grant award outlining deficiencies along with the
requirement that they address the issues found within the first 30 days of the grant
period of performance.

Energy Training Partnership:
The Energy Training Partnership program provided placement and training services in
the energy efficiency and renewable energy industries for workers impacted by national
energy and environmental policy.

From the list of approximately 161 total eligible applicants, 25 were selected for funding
totaling approximately $99.8 million scored by the review panel based on the evaluation
criteria stated in the SGA. (See Exhibit 3 for a list of awardees.)

The SGA required that approximately $25 million of total funds be reserved for projects
serving communities impacted by automotive industry-related restructuring. With the
selection of these applicants, ETA exceeded the "approximately $25 million"
requirement, allowing for a cushion in the event that any grantees for whom ETA
estimated the amount of funds used for activities in auto-impacted counties use a
smaller portion of funds for those activities than expected. In addition, funding was
provided to an applicant that enhanced the geographic balance across the country by
adding both a new service area and an additional state. Geographic balance was a
consideration specified in the SGA.

Green Capacity Building:
The Green Capacity Building program was available to active DOL funded grantees to
build the capacity of DOL-funded training programs to ensure that targeted groups were
prepared to meet the needs of our country’s expanding green industries.

From the list of 113 total eligible applicants, 53 of the most highly-rated applications
were selected for funding. The additional selection of 9 of the next highest-rated
applications increased the geographic balance. In total, 62 of the highest-rated
applicants were selected for funding totaling approximately $5.8 million scored by the



                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          7                   Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

review panel based on the evaluation criteria stated in the SGA. (See Exhibit 4 for a list
of awardees.)

The eligible applicants were limited to current DOL grantees who had previously
received funding through selected SGAs. The panel scores served as the primary basis
for selection of applications for funding, in conjunction with other factors such as
geographic balance and representation across the eligible grant programs. These grant
programs were Indian and Native Americans Program, National Farm Worker Jobs
Program, Prisoner Re-Entry, Women in Apprenticeship and Non-Traditional
Occupations, Senior Community Service Employment Program, Youth Build, and Young
Offender grants.

State Energy Sector Partnership and Training:
The State Energy Sector Partnership and Training program provided funding to be used
for training, job placement, and related activities that reflect a comprehensive statewide
energy sector strategy including the Governor’s overall workforce vision, state energy
policies, and training activities that lead to employment in energy efficiency and
renewable energy industry sectors.

From the list of 48 total eligible applicants, 34 were selected for funding totaling
approximately $187.9 million scored by the review panel based on the evaluation
criteria stated in the SGA. (See Exhibit 5 for a list of awardees.)

The panel scores served as the primary basis for selection of applicants for funding in
conjunction with other factors such as geographic balance across the energy efficiency
and renewable energy industries and representation among communities impacted by
automotive industry restructuring.

Health Care and Other High-Growth:
The Health Care Sector and Other High-Growth and emerging-industries programs
provided funding to teach the necessary skills and help participants pursue careers in
health care and other high-growth industries.

From the list of approximately 734 total eligible applicants, 55 were selected for funding
totaling approximately $226.9 million scored by the review panel based on the
evaluation criteria stated in the SGA. (See Exhibit 6 for a list of awardees.)

The panel scores served as the primary basis for selection of applicants for funding.
Twenty-nine of the most highly-rated applications were selected for funding. The
remaining funds were awarded to 26 additional grant applicants if 1) they added a new
state that was not previously represented in the highest-rated score, or 2) added an
industry focus other than health care. ETA stated that selection of applicants meeting
these criteria enhanced the geographical distribution and supported ETA's focus on
other high-growth industries' representation as specified in the SGA.



                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          8                   Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General


Objective 2 — Did ETA consider “a demonstrated or potential ability to deliver
              programmatic results,” in awarding competitive grants under the
              Recovery Act, as required by OMB Memo M-09-15?

      ETA considered a demonstrated or potential ability to deliver programmatic
      results in awarding 244 Recovery Act competitive grants.

From the six grant programs included in our audit, ETA selected the 244 Recovery Act
grantees using merit-based selection criteria. The selection criteria were designed to
identify projects for funding that had a demonstrated or potential ability to deliver
programmatic results. To assess the criteria selected and whether it was utilized in the
evaluation process, we reviewed the SGAs for each of the grant programs and tested
the panel process.

OMB Memorandum M-09-15, Updating Implementing Guidance for the American
Recovery and Reinvestment Act of 2009, states that “merit-based selection criteria shall
be designed to support particular projects, applications, or applicants for funding that
had, to the greatest extent, a demonstrated or potential ability to (i) deliver
programmatic results…. In evaluating projects for funding, departments and agencies
accordingly should allocate Recovery Act funds toward projects that will achieve
long-term public benefits, … optimize economic activity, deliver programmatic results,
and meet transparency and accountability objectives.

Our review of the SGAs for each of the six competitive grant programs found that all of
the SGA’s incorporated factors to enable the panel to assess the grantees’
demonstrated or potential ability to deliver programmatic results. Our testing of a
random sample of 45 grants found that these factors were utilized by the panelists to
rank the grant applications. Zero errors were noted.

For example, the SGA for the State Energy Sector Partnership Training program
required that the applicant demonstrate strong evidence that it had the fiscal,
administrative, and performance management capacity to effectively administer the
grant. The applicant was required to fully describe its capacity to lead and manage the
grant project and oversee the local and regional project teams in order to successfully
implement the project plan. The discussion was also to include the applicant’s relevant
systems, processes, and administrative controls that would enable it to comply with
Federal rules and regulations related to the grant’s fiscal, administrative, and
programmatic requirements.

Additionally, grant funds awarded under the State Energy Sector Partnership Training
SGA were to be used to provide training, job placement, and related activities that
reflected a comprehensive statewide energy sector strategy. In response, applicants
were to include a recruitment plan that could yield a large number of qualified applicants
for the program, be able to collect participant-level information on individuals who apply


                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                         9                   Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

to participate in the program, and have project retention strategies to minimize client
attrition.

Objective 3 — Did ETA’s guidance during grant solicitation and post-solicitation
              activities address Congress’ requirements regarding use of these
              funds?

       ETA’s guidance during the grant solicitation and post-solicitation activities
       addressed Congress’ requirements regarding the use of the funds; however,
       funding challenges threaten ongoing monitoring activities. Furthermore, DOL
       lacks a comprehensive policy framework to guide its multifaceted green jobs
       initiatives.

Overall, the grants were announced, evaluated, and selected in accordance with
relevant criteria, and developed comprehensive monitoring procedures and guidelines.
However, the ETA employees currently charged with monitoring these grants are
scheduled to leave the Department in September 2010 with the expiration of Recovery
funding, and ETA is developing the plans to assign the grant monitoring workload
across existing non-Recovery Act funded staff (see Finding 1). While reviewing the
green jobs projects of the Recovery Act high-growth grants, we noted that ETA has no
comprehensive policy framework to guide its green jobs initiatives and grant programs
(see Finding 2).

The audit included structured interviews administered on a nationally projectable
statistical sampling basis to grant monitors responsible for oversight of the Recovery Act
grants awarded for worker training and placement in high-growth green jobs, health
care and emerging-industry sectors. Our sample included 63 grants resulting in a total
of 34 FPOs. We interviewed the 34 FPOs to gain a better understanding of the
monitoring activities. To assess ETA solicitation and post-solicitation process, we
reviewed grant documents and data available from ETA’s Office of Workforce
Investment, Office of Policy, Development & Research and the Office of Regional
Management, as well as interviews of various ETA personnel.

Solicitation Activities
The Recovery Act provided ETA $750 million for competitive grants for worker training
and placement in high-growth and emerging-industry sectors. The Act specified that
$500 million be used for research, labor exchange and job training projects that prepare
workers for careers in energy efficiency and renewable energy as described in section
171(e)(1)(B) of the WIA. The Act also specified that the remaining $250 million should
give priority to projects that prepare workers for careers in the health care and other
high-growth sectors. Of the $750 million, the Department of Labor (DOL) had awarded
$717 million in these grants in time to be included in our review.

Section 171 of the Workforce Investment Act of 1998 (29 U.S.C. 2916) focused on
energy efficiency and renewable energy worker training programs and required that not

                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          10                  Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

later than 6 months after the date of enactment, the Secretary of Labor in consultation
with the Secretary of Energy, establish an energy efficiency and renewable energy
worker training program under which the Secretary shall carry out the following
activities:

      •		    National Research Program
             The research program, acting through the Bureau of Labor Statistics, will
             collect and analyze labor market data to track workforce trends resulting
             from energy-related initiatives.
      •		    National Energy Training Partnership Grants
             Energy training partnership grants awarded on a competitive basis to
             enable entities to carry out training that leads to economic self-sufficiency
             and to develop an energy efficiency and renewable energy industries
             workforce.
      •		    State Labor Market Research, Information, and Labor Exchange Research
             Program
             The state labor market research grants fund the states’ administration of
             programs that identify job openings in the renewable energy and energy
             efficiency sector; administer skill and aptitude testing and assessment for
             workers; and counsel, manage cases, and refer qualified job seekers to
             openings and training programs, including energy efficiency and
             renewable energy training programs.
      •		    State Energy Training Partnerships Program
             The state energy training program awarded competitive grants to eligible
             State Energy Sector Partnerships to enable such partnerships to
             coordinate with existing apprenticeship and labor management training
             programs and implement training programs that lead to the economic
             self-sufficiency of trainees.
      •		    Pathways Out of Poverty Demonstration Program
             The pathways out of poverty demonstration program awarded competitive
             grants to entities to carry out training that leads to economic
             self-sufficiency.
Our review of the guidance specified in the five (“Green Job”) SGA’s did address
Section 171 of the Workforce Investment Act of 1998 and focused on energy efficiency
and renewable energy worker training programs. Additionally, our review of the
healthcare and other high-growth solicitation found that the award process did address
projects that are focused on preparing workers for careers in the health care sector. In
response to the requirements of the Recovery Act, ETA awarded funds for the following
grant programs:




                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                         11                  Draft Report No. 18-10-013-03-390
                                                                     Prepared by WithumSmith+Brown
                                        For the U. S. Department of Labor – Office of Inspector General


 Table 1: Competitive Grant Programs (see note)
                                                                                                     Period of
 Title                                                 Award Date         Award Amount              Performance
 Green Jobs:
 Pathways Out of Poverty                           January 29, 2010         $    147,757,701       Up to 24 months
 State Labor Market Information Improvement        December 1, 2009               48,848,285       18 months
 Energy Training Partnership                       January 15, 2010               99,760,688       Up to 24 months
 Green Capacity Building                           December 1, 2009                5,814,360       Up to 12 months
 State Energy Sector Partnership & Training        January 29, 2010              187,908,818       Up to 36 months
 Green Jobs Total                                                                490,089,852
 Health Care and Other High-Growth:
 Health Care Sector and Other High-Growth & 

 Emerging-Industries                                 March 1, 2010               226,929,446       Up to 36 months 

 Competitive Grants Total                                                    $   717,019,298

Note - Of the $750 million, the DOL awarded $717 million in these grants in time to be included in our review.

Post-Solicitation Activities

Policies and Procedures
ETA issued Employment and Training Order (ETO) No. 1-08, Grants Management
Policies and Responsibilities within the Employment Training Administration. The ETO
defines the post-solicitation activities within the grant life cycle as the
“period-of-performance.” The period-of-performance covers the period within the
beginning and ending date of the award. This phase in the grant life cycle includes any
necessary oversight and assistance to ensure grantees accomplish the program
objectives. Specifically, the objectives during this phase are to:

             •    Oversee grant compliance;
             •    Identify grantees’ individual and collective training needs;
             •    Determine grantees’ individual and collective technical assistance needs;
             •    Arrange for training and technical assistance; and
             •    Develop and update monitoring plans to target at-risk grants.

Per the ETO, grantees are held accountable for “maintaining fiscal integrity, delivering
products and services on time and within budget, and meeting performance goals.”

To help ensure compliance with Recovery Act and Congressional requirements
regarding the use of the funds, ETA has developed a core monitoring guide to
incorporate Recovery Act requirements. The final supplement, issued to the Regional
Offices in August 2010, focuses on specific Recovery Act regulations and requirements
and is to be used by the Federal Project Officer’s (FPO) when performing core
monitoring visits of Recovery Act grantees.




                                        Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                   12                  Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

Oversight and Monitoring
The FPOs are primarily responsible for oversight of the grantees. The FPOs work
closely with the performance specialists, financial service staff, grants management
staff and program office staff. The FPOs, working closely with the other ETA offices,
ensure the fiscal integrity of the grantee and ensure the grantee delivers the products
and services on time, within budget and are in keeping with performance goals.

In the monitoring process, the FPOs act as a technical liaison between the grantee,
grant officer, and program office. In order to ensure grantee program results are in
keeping with program and Congress’ requirements, the FPOs:

   •   Maintain regular communication with the grantees;
   •   Perform risk assessments;
   •   Complete quarterly performance desk reviews;
   •   Perform monitoring visits; and
   •   Develop a comprehensive oversight plan.

The oversight plan is designed to address risks identified during the FPOs’ risk
assessment of the grantees. For the Recovery Act grants, the oversight plan included
ensuring Section 1512 reporting requirements were met, and on-site and core
monitoring visits to the grantee were conducted.

As part of the oversight and monitoring activities, the FPOs prepare reports noting the
important facts, deficiencies observed and areas of concern relating to the
administration and performance of each grant. FPOs complete an analysis of the
quarterly reports (Section 1512, fiscal, narrative and program) for timeliness, accuracy,
and satisfactory progress. FPOs review grant modification requests, recommend action
such as grantee equipment purchases, and identify and provide technical assistance as
necessary. If grantees need more intensive technical assistance, the FPOs are
responsible for identifying that need and arranging for training. If the project is not
progressing successfully, the FPOs develop correction action requirements and oversee
the corrective action implementation.

FPO Interviews
To gain a better understanding of the post-solicitation activities for the six Recovery Act
projects noted above, WS+B statistically selected a sample of 63 grants. The random
statistical sample is projectable nationally and included a total of 34 FPOs. We
interviewed the 34 FPOs to gain a better understanding of the monitoring activities and
policies and procedures. The interviews included questions concerning job
responsibilities, job training, monitoring requirements, monitoring activities, and tracking
grantee deliverables.

Our interviews of FPOs found that ETA has a well-designed training and monitoring
process. To help ensure that Recovery Act grant funds are spent according to grant
specifications and Congressional requirements, ETA has held webinars and training

                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          13                  Draft Report No. 18-10-013-03-390
                                                                 Prepared by WithumSmith+Brown
                                    For the U. S. Department of Labor – Office of Inspector General

      sessions to make certain that grantees and ETA personnel are aware of Recovery Act
      requirements regarding the use of the funds.

      In addition to training, ETA has designed the Recovery Act Data (RAD) system to
      facilitate the collection of Recovery Act data. Grantees enter data into the RAD system
      so the data can be readily summarized and reported. The RAD system went online on
      July 23, 2010, and is a web-based case management system designed to collect
      participant data and quarterly performance and narrative reports. Prior to the RAD
      system, grantees submitted participant information and quarterly performance and
      narrative reports via email.

       Finding 1 — Issues with Funding Threaten Effective Monitoring of Recovery Act
       Competitive Grants
Finding 1 — Issues with Funding Threatens Effective Monitoring of Recovery Act Competitive Grants
       Although ETA has comprehensive training and monitoring procedures in place, our FPO
       interviews found that 70 percent of grants sampled (44 out of the 63) were administered
       by FPOs hired under the Recovery Act. Those FPOs will be leaving
       September 30, 2010 when Recovery Act funding for their positions ends. Based on our
       interviews, the Recovery Act FPOs will pass oversight responsibility for their grants to
       the remaining FPOs stretching ETA’s current available monitoring resources. The
       average monitoring workload for non-Recovery Act FPOs, depending on the number of
       grants in the region, is 26–37 grants. After September 30, 2010, the non-Recovery Act
       FPO workload will increase to approximately 30 to 40 grants, depending on the staff
       level of the FPO.

      The remaining FPOs will assume responsibility for all of the technical assistance needs
      and the onsite visits to the grantees. The three basic categories of onsite visits are
      technical, site, and monitoring visits. Technical assistance visits are designed to
      address a specific assistance need and are performed as necessary. Site visits are
      designed as a general assessment of the grantee and to identify grantee technical
      assistance requirements. For the Recovery Act grantees, site visits were planned for all
      grantees, but typically are performed based on grantee risk. Monitoring visits are an
      in-depth assessment of the grantees and include a formal monitoring report and
      compliance findings on each grantee upon completion. Monitoring visits occur
      approximately halfway through the period of performance; therefore, ETA is expected to
      complete the monitoring visits once the grantees reach that milestone.

      ETA intended to ensure that the six competitive grant program grantees had a site visit
      prior to September 30, 2010. Our interview found that 29 percent (18 out of the 63) of
      the grants in our sample had been visited as of August 27, 2010, including 4 technical
      assistance visits, 13 site visits and 1 monitoring visit. Subsequent to our interviews, the
      Regional Administrators said that 5 of the 6 regions have completed site visits to all the
      regional grantees included in our audit. The 6th region has visited approximately 3/4 of
      the grantees. To date one core monitoring visit has been completed. The other grantees
      are not required to have this core monitoring visit until later.


                                     Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                14                  Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

ETA program officials and Region Administrators said they plan to implement strategies
to do more with less and will assign the Recovery Act monitors’ workload to
non-Recovery Act grant monitors. The reduction in staff resources and funding for travel
costs for monitors, will negatively impact ETA’s ability to fully execute the Recovery Act
grantee monitoring and oversight functions as originally planned and that were
evaluated positively by our audit. Lack of monitors will likely result in less contact with
grantees, in general, and less frequent visits to the grantee sites. Regional Office
management said they will ensure risk is continually assessed for the grantees, and
those with higher risk will receive priority attention.

As of September 20, 2010, the ETA had about $4 million remaining from the more than
$40 million provided by the Recovery Act to, among other things, monitor the Recovery
Act grants including those under our review. ETA management said that they are
planning to use some of the remaining funds to contract for support services, which will
lighten the remaining FPOs’ administrative workload and facilitate their ability to focus
on grant oversight activities.

ETA has also asked for funding to support an increase in grant monitoring staff as part
of its FY 2011 budget request. The FY 2011 budget request stated:

       The Office of Regional Management (ORM), the Office of Trade
       Adjustment Assistance (OTAA), and the Office of Financial and
       Administrative Management (OFAM) are currently managing and will
       continue to manage increased workloads under the Recovery Act through
       FY 2011. In addition, the Office of Policy Development and Research
       (OPDR) will oversee evaluation of Recovery Act programs and activities
       beyond FY 2010.

       For ORM, increased workloads will be managed by the Regions under the
       Recovery Act continuing into FY 2011, providing justification for the
       requested increase in FTE. The request for FY 2011 reflects an increase
       from the FY 2010 Agency Request Level of 286 to the level of 334 FTE
       (an increase of 48 FTE, but 66 below the FY 2010 level including
       Recovery Act funded positions). ORM received — in Recovery Act funds
       — an increase of 114 FTE, or about 40%, to manage the increased
       Recovery Act workload in FY 2010. However, for formula grants the
       workload was almost double what it was in FY 2008; for the discretionary
       grants, the workload will triple from FY 2008 to FY 2010 and will remain
       high through FY 2011. Federal staff will be needed to ensure that these
       funds are spent wisely and desired outcomes are achieved. Also, it
       should be noted that nearly all formula and discretionary grants are
       authorized for a 3-year period, with the exception of Unemployment
       Insurance (UI) and Trade. The Regions manage all grants until close out,
       which means that these numbers should be tripled to get a closer
       approximation of total grant management responsibility. Additional
       Recovery Act work for the ORM include reviews of new monthly
       performance reporting for formula grants in addition to the regular

                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          15                  Draft Report No. 18-10-013-03-390
                                                                          Prepared by WithumSmith+Brown
                                             For the U. S. Department of Labor – Office of Inspector General

                   quarterly performance reports; and reviews of the OMB required
                   recipient/sub-recipient reports, which will add new reviews of nearly 6,000
                   reports by the Regions on a quarterly basis through FY 2011.

           ETA officials told us that if the agency does not receive the requested funds for
           additional monitoring, it will negatively impact ETA’s ability to monitor its
           Recovery Act grants.

           Finding 2 — DOL Lacks a Comprehensive Policy Framework to Guide its
           Multifaceted Green Jobs Initiatives
Finding 2 — DOL Lacks a Comprehensive Policy Framework to Guide its Multifaceted Green Jobs Initiatives
           In performing our work, we noted that ETA has no comprehensive policy framework to
           guide their green jobs initiatives and grant programs. Because of the dynamic nature of
           the green issue, this framework would assist in carrying out future responsibilities
           concerning green issues. By its very nature, this would need to be viewed as a living
           document, and should be updated as the green environment evolves.

           The Department’s FY 2011 Congressional Budget Justification discusses the
           Department’s intention to further develop its efforts to expand on the Green Jobs
           initiatives begun in FY 2010. DOL has requested $85 Million to fund the second year of
           the green jobs innovation project. These funds will build upon the initial investments in
           green jobs innovation and further address the workforce needs associated with green
           jobs for FY 2011 by targeting its efforts on further development of green curricula,
           competency models, career pathways, and other valuable training tools. Without a
           comprehensive policy framework, DOL will lack a needed programmatic definition to
           guide its green jobs initiative and help ensure the grants addressing green jobs are as
           effective as possible.


           Objective 4 — Did grant agreements require adherence to Recovery Act reporting
                         and tracking requirements?

                   ETA did require adherence to the Recovery Act reporting and tracking
                   requirements in the grant agreements.

           We found that ETA included in the grants, notification that the grantees were required to
           comply with Recovery Act Section 1512 reporting requirements and related OMB
           guidance. Section 1512 of the Recovery Act requires that recipients of Recovery Act
           funds submit quarterly reports regarding use of the funds, as well as the impact on the
           Recovery Act objective to create and preserve jobs. Recipients are also responsible for
           submitting information on any subcontracts or sub-grants awarded with Recovery Act
           funds and for submitting their reports using a centralized web portal at
           FederalReporting.gov within 10 days after the end of each quarter.




                                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                         16                  Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

In addition, OMB guidance (M-09-15) also requires Federal agencies to notify
contractors and grantees in their agreements of recipient reporting responsibilities under
the Recovery Act, including compliance with related OMB guidance.

To assist the grantees in meeting the reporting requirements, ETA sponsored technical
assistance activities to explain the reporting requirements and how to comply with them.
These activities included DOL and OMB webinars; a Recovery Act reporting workshop
held in Washington, D.C.; and ongoing technical assistance calls and support from ETA
program staff.

We reviewed the SGAs and noted that Recovery Act reporting requirements were
included in the solicitations. The SGAs were subsequently incorporated into the grant
award documents. Additionally, we tested our sample of 45 grants to determine
whether the grantee reports were in compliance with Section 1512 of the Recovery Act.
Zero errors were noted.

RECOMMENDATIONS

To ensure the nearly $717 million in green and health care grant funds are not at risk of
not being spent as intended by Congress, we recommend the Assistant Secretary for
Employment and Training:

   1. Take the necessary actions to continue to identify and prioritize workloads and
      funding levels to ensure grants are adequately monitored. These efforts may or
      may not need to focus exclusively on Recovery Act funding streams.

   2. Take the necessary actions to provide a comprehensive policy framework for its
      training and employment programs in carrying out its responsibilities in the green
      jobs area.

We appreciate the cooperation and courtesies that ETA personnel extended to
WithumSmith+Brown during this audit.




                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                         17                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               18                  Draft Report No. 18-10-013-03-390
                                          Prepared by WithumSmith+Brown
             For the U. S. Department of Labor – Office of Inspector General




Exhibits 





             Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                        19                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               20                  Draft Report No. 18-10-013-03-390
                                                                       Prepared by WithumSmith+Brown
                                          For the U. S. Department of Labor – Office of Inspector General

                                                                                                     Exhibit 1
Pathways Out of Poverty Grants Awarded

Exhibit 1 Pathways Out of Poverty Grants Awarded
 No.   Organization Name                                                National or Local   State     Amount
  1.   Better Family Life, Inc.                                                L             MO     $ 3,305,493
  2.   Goodwill Industries International                                       N             MD     $ 7,303,634
  3.   Roca, Inc.                                                              L             MA     $ 2,398,778
  4.   Community College of Philadelphia                                       L             PA     $ 3,184,428
  5.   Consortium for Worker Education                                         L             NY     $ 4,000,000
  6.   Mott Community College                                                  L             MI     $ 3,662,403
  7.   Private Industry Council of Westmoreland/Fayette, Incorporated          L             PA     $ 2,732,719
  8.   SER - Jobs for Progress of the Texas Gulf Coast, Inc.                   L             TX     $ 3,122,554
  9.   West Hills Community College District                                   L             CA     $ 3,000,000
 10.   Alternative Opportunities, Inc.                                         L             MO     $ 2,308,200
 11.   Boley Centers, Inc.                                                     L             FL     $ 2,300,678
 12.   Citrus Levy Marion Regional Workforce Development Board, Inc.           L             FL     $ 2,985,175
 13.   City of Minneapolis                                                     L             MN     $ 4,000,000
 14.   Grand Rapids Community College                                          L             MI     $ 4,000,000
 15.   It's My Community Initiative                                            L             OK     $ 4,000,000
 16.   Lehigh Valley Workforce Investment Board, Inc.                          L             PA     $ 4,000,000
 17.   Los Angeles Community College District                                  L             CA     $ 4,000,000
 18.   National Association of Regional Councils                               N             DC     $ 7,994,999
 19.   National Council of La Raza                                             N             DC     $ 3,063,839
 20.   Northern Rural Training & Employment Consortium (NoRTEC)                L             CA     $ 4,000,000
 21.   Providence Economic Development Partnership                             L             RI     $ 2,489,111
 22.   Southeast Community College Area                                        L             NE     $ 2,331,278
 23.   CNY Works, Inc.                                                         L             NY     $ 3,715,931
 24.   Florida State College at Jacksonville                                   L             FL     $ 2,229,642
 25.   Jobs for the Future, Inc.                                               N             MA     $ 7,997,936
 26.   Mi Casa Resource Center for Women, Inc.                                 L             CO     $ 3,633,195
 27.   Opportunities Industrialization Centers of America, Inc.                N             PA     $ 4,900,000
 28.   Pathstone Corporation                                                   N             NY     $ 8,000,000
 29.   Southwest Housing Solutions Corporation                                 L             MI     $ 4,000,000
 30.   Western Iowa Tech Community College                                     L             IA     $ 3,999,459
 31.   Worksystems, Inc.                                                       L             OR     $ 4,000,000
 32.   Eastern Maine Development Corporation                                   L             ME     $ 2,109,088
 33.   MDC, Inc.                                                               N             NC     $ 3,780,816
 34.   Moultrie Technical College                                              L             GA     $ 3,753,579
 35.   The Workplace, Inc.                                                     L             CT     $ 4,000,000
 36.   White Earth Band of Chippewa                                            L             MN     $ 3,086,817
 37.   Workforce Development Council of Seattle King County                    L             WA     $ 3,639,530
 38.   East Harlem Employment Services, Inc. DBA Strive                        N             NY     $ 4,728,419
                                                                                            Total   $147,757,701




                                           Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                      21                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               22                  Draft Report No. 18-10-013-03-390
                                                                        Prepared by WithumSmith+Brown
                                           For the U. S. Department of Labor – Office of Inspector General

                                                                                                              Exhibit 2
State Labor Market Information Grants Awarded
Exhibit 2 State Labor Market Information Grants Awarded
Consortiums:
 No. Organization Name                                                  Consortium Members           State Amount
  1. Nevada Department of Employment, Training & Rehabilitation          CO, FL, IL, NY, NC,          NV $ 3,753,000
                                                                             TX and UT
 2.    Vermont Department of Labor                                        CT, ME, MA, NH,             VT     $ 3,999,923
                                                                           NJ, NY and RI
 3. 	 Maryland Department of Labor, Licensing & Regulation                   DC and VA               MD      $ 4,000,000
 4. 	 State of Louisiana Office of Occupational Information Services,            MS                  LA      $ 2,279,393
      Research & Statistics Division
 5. 	 Indiana Department of Workforce Development                             MI and OH              IN      $ 4,000,000
 6. 	 Montana Department of Labor and Industry                             IA, NE, ND, SD,           MT      $ 3,877,949
                                                                             UT and WY
                                                                                                     Total   $ 17,910,265



Individual State Selections:
 No.   Organization Name                                                                     State           Amount
  1.   New York State Department of Labor                                                     NY       $       1,112,207
  2.   Minnesota Department of Employment and Economic Development                            MN       $       1,155,488
  3.   Employment Security Commission of North Carolina                                       NC       $         946,034
  4.   State of Idaho                                                                         ID       $       1,250,000
  5.   Commonwealth of Pennsylvania Department of Labor & Industry                            PA       $       1,250,000
  6.   New Mexico Department of Workforce Solutions                                           NM       $       1,250,000
  7.   State of California Employment Development Department                                  CA       $       1,250,000
  8.   State of Oregon Employment Department                                                  OR       $       1,250,000
  9.   Kentucky Education and Workforce Development Cabinet                                   KY       $       1,250,000
 10.   Missouri Department of Economic Development                                            MO       $       1,227,192
 11.   Florida Agency for Workforce Innovation                                                FL       $       1,250,000
 12.   Georgia Department of Labor                                                            GA       $       1,177,975
 13.   Ohio Department of Job and Family Services                                             OH       $       1,015,700
 14.   New Jersey Department of Labor and Workforce Development                               NJ       $       1,249,995
 15.   South Carolina Department of Commerce                                                  SC       $         763,175
 16.   Hawaii Department of Labor and Industrial Relations                                    HI       $       1,247,343
 17.   Iowa Workforce Development                                                             IA       $       1,172,614
 18.   Puerto Rico Department of Labor and Human Resources                                    PR       $       1,248,388
 19.   Alabama Department of Industrial Relations                                             AL       $       1,145,210
 20.   Delaware Department of Labor                                                           DE       $         889,404
 21.   Alaska Department of Labor & Workforce Development                                     AK       $         800,000
 22.   Tennessee Department of Labor & Workforce Development                                  TN       $         765,340
 23.   Washington State Employment Security Department                                        WA       $       1,060,910
 24.   Arizona Department of Economic Security                                                AZ       $       1,211,045
                                                                                             Total     $      30,938,020




                                            Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                       23		                Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               24                  Draft Report No. 18-10-013-03-390
                                                                            Prepared by WithumSmith+Brown
                                               For the U. S. Department of Labor – Office of Inspector General

                                                                                                                     Exhibit 3
Energy Training Partnership Grants Awarded

Exhibit 3 Energy Training Partnership Grants Awarded
 No.     Organization Name                                                           National or Local   State       Amount
  1.     H-CAP, Inc.                                                                        N             NY     $    4,637,551
  2.     Northwest Energy Efficiency Council 	                                              L             WA     $   3,876,171
  3. 	   UAW-Labor Employment and Training Corporation                                      L             MO     $    3,200,000
  4. 	   Utility Workers Union of America, AFL-CIO                                          N             DC     $   4,993,922
  5. 	   Central Vermont Community Action Council, Inc.                                     L             VT     $   4,846,195
  6. 	   International Transportation Learning Center                                       N             MD     $   5,000,000
         Joint Labor Management Cooperation Committee-IBEW/NECA DBA                                              $    5,000,000
  7. 	   California LMCC/IBEW-NECA                                                          L             CA
  8. 	   E.C.I.A. Business Growth Inc.                                                      L             IA     $ 2,060,250
  9. 	   Institute for Career Development, Inc.                                             N             IN     $ 4,658,983
         National Ironworkers and Employers Apprenticeship Training and                                          $ 1,943,931
 10. 	   Journeyman Upgrading Fund (Ironworkers)                                            N            DC
 11. 	   Blue Green Alliance                                                                L            MN      $   5,000,000
 12.     Oregon Manufacturing Extension Partnership                                         L            OR      $   5,000,000
 13.     SER Metro Detroit Jobs for Progress, Inc.                                          L            MI      $   4,298,673
 14.     The Providence Plan                                                                L            RI      $   3,720,000
 15.     Montana Electrical Joint Apprenticeship and Training Committee                     L            MT      $   5,000,000
 16.     CWA National Education and Training Trust                                          N            DC      $   3,969,056
 17.     Heritage Health Foundation, Inc.                                                   L            PA      $   1,408,600
         International Training Institute for the Sheet Metal and Air Conditioning                               $   4,995,188
 18.     Industry                                                                           N             VA
 19.     Labor's Community Agency, Inc.                                                     L             CO     $ 3,604,162
 20.     Memphis Bioworks Foundation                                                        L             TN     $ 2,931,103
 21.     Thomas Shortman Training Scholarship and Safety Fund                               L             NY     $ 2,802,269
 22.     Austin Electrical J.A.T.C.                                                         L             TX     $ 4,842,424
 23.     Broward County Minority Builders Coalition 	                                       L             FL     $ 3,280,656
 24.     Community Housing Partners Corporation 	                                           L             VA     $ 3,865,480
 25.     Ohio Electrical Labor Management Cooperative Committee, Inc.                       L             OH     $ 4,826,073
                                                                                                         Total   $ 99,760,688




                                                Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                           25		                Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               26                  Draft Report No. 18-10-013-03-390
                                                                       Prepared by WithumSmith+Brown
                                          For the U. S. Department of Labor – Office of Inspector General

                                                                                                               Exhibit 4
Green Capacity Building Grants Awarded

Exhibit 4 Green Capacity Building Grants Awarded Awarded
 No.   Organization Name                                                             City              State       Amount
  1.   National Institute for Metalworking Skills, Inc.                              Fairfax            VA     $     93,000
  2.   Pathways-VA, Inc.                                                             Petersburg         VA     $    100,000
  3.   Southern Nevada Workforce Investment Board                                    Las Vegas          NV     $     99,965
  4.   Old Colony Y                                                                  Brockton           MA     $    100,000
  5.   Aletheia House                                                                Birmingham         AL     $     70,736
  6.   Comprehensive Community Solutions, Inc.                                       Rockford           IL     $     97,868
  7.   Goodwill Industries of the Conemaugh Valley, Inc.                             Johnstown          PA     $     99,524
  8.   Youth Build Boston, Inc.                                                      Roxbury            MA     $    100,000
  9.   Able-Disabled Advocacy, Inc.                                                  San Diego          CA     $    100,000
 10.   ARCH Training Center, Inc.                                                    Washington         DC     $     94,255
 11.   Youth Build McLean County (YBMC Inc.)                                         Bloomington        IL     $    100,000
 12.   Arizona Women's Education and Employment, Inc. (AWEE)                         Phoenix            AZ     $    100,000
 13.   Co-Opportunity, Inc.                                                          Hartford           CT     $     69,933
 14.   The Workplace, Inc.                                                           Bridgeport         CT     $     59,894
 15.   Year One, Inc. DBA Mile High Youth Corps                                      Denver             CO     $     99,855
 16.   Community Action Partnership of Sonoma County                                 Santa Rosa         CA     $     85,910
 17.   Community Teamwork, Inc.                                                      Lowell             MA     $     77,585
 18.   Florida Institute for Workforce Innovation, Inc.                              Melrose            FL     $    100,000
 19.   Goodwill Industries International                                             Rockville          MD     $    100,000
 20.   Coalition for Responsible Community Development                               Los Angeles        CA     $    100,000
 21.   Cobb Housing, Inc.                                                            Marietta           GA     $    100,000
 22.   People Incorporated of Virginia                                               Abingdon           VA     $     42,793
 23.   San Gabriel Valley Conservation and Service Corps                             El Monte           CA     $     98,122
 24.   Youth Conservation Corps                                                      Waukegan           IL     $    100,000
 25.   Youth Build Lake County                                                       North Chicago      IL     $    100,000
 26.   Southern Appalachian Labor School                                             Montgomery         WV     $     98,700
 27.   Urban League of Broward County                                                Fort Lauderdale    FL     $    100,000
 28.   Walker Montgomery Community Development Corporation                           New Waverly        TX     $     75,000
 29.   Indianapolis Private Industry Council, Inc.                                   Indianapolis       IN     $    100,000
 30.   Milwaukee Area Workforce Investment Board                                     Milwaukee          WI     $     98,364
 31.   Portland Youth Builders                                                       Portland           OR     $    100,000
 32.   Sacramento Regional Conservation Corps                                        Sacramento         CA     $     92,820
 33.   San Diego Imperial Counties Labor Council                                     San Diego          CA     $    100,000
 34.   County of Kern                                                                Bakersfield        CA     $    100,000
 35.   Latin American Youth Center Youth Build Public Charter School                 Washington         DC     $    100,000
 36.   San Antonio Youth Centers                                                     San Antonio        TX     $    100,000
 37.   Salt Lake Community College                                                   Taylorsville       UT     $     96,211
 38.   City of Phoenix                                                               Phoenix            AZ     $    100,000
 39.   Connection Training Services                                                  Philadelphia       PA     $    100,000
 40.   Springfield Urban League, Inc.                                                Springfield        IL     $    100,000
 41.   Young Adult Development in Action, Inc.                                       Louisville         KY     $    100,000
 42.   Goodwill Industries, Inc., Serving E. Nebraska and SW. Iowa                   Omaha              NE     $     71,714
 43.   Improved Solutions for Urban Systems, Inc.                                    Dayton             OH     $    100,000
 44.   Los Angeles Communities Advocating for Unity, Social Justice and Action (La   Los Angeles        CA     $    100,000
       Causa)
 45.   Maui Economic Opportunity, Inc.                                               Wailuku           HI      $    100,000
 46.   Apprenticeship and Nontraditional Employment for Women (ANEW)                 Seattle           WA      $    100,000
 47.   Blackfeet Tribal Business Council                                             Browning          MT      $     96,257
 48.   OAI, Inc.                                                                     Chicago           IL      $    100,000
 49.   San Joaquin County Office of Education                                        Stockton          CA      $     70,000
 50.   Telamon Corporation                                                           Raleigh           NC      $    100,000



                                           Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                      27                  Draft Report No. 18-10-013-03-390
                                                                      Prepared by WithumSmith+Brown
                                         For the U. S. Department of Labor – Office of Inspector General

                                                                                               Exhibit 4
Green Capacity Building Grants Awarded (Continued)


 No.   Organization Name                                               City           State     Amount
 51.   City of Peoria Workforce Development Department                 Peoria          IL     $ 100,000
 52.   American Youth Works                                            Austin          TX     $ 100,000
 53.   Youth Build USA, Inc.                                           Somerville      MA     $    78,047
 54.   Cook Inlet Tribal Council, Inc.                                 Anchorage       AK     $ 67,268
 55.   Episcopal Community Services of Maryland                        Baltimore       MD     $    97,128
 56.   Women in Non Traditional Employment Roles                       Los Angeles     CA     $ 100,000
 57.   Easter Seals, Inc.                                              Chicago         IL     $    99,956
 58.   Experience Works, Inc.                                          Arlington       VA     $ 100,000
 59.   Mojave Basin Youth Corps, Inc.                                  Adelanto        CA     $    83,455
 60.   Western New York AmeriCorps Fund                                West Seneca     NY     $ 100,000
 61.   California Indian Manpower Consortium, Inc.                     Sacramento      CA     $ 100,000
 62.   Northeast Parent & Child Society, Inc.                          Schenectady     NY     $ 100,000
                                                                                      Total   $ 5,814,360




                                         Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                    28                  Draft Report No. 18-10-013-03-390
                                                                     Prepared by WithumSmith+Brown
                                        For the U. S. Department of Labor – Office of Inspector General

                                                                                                    Exhibit 5
State Energy Sector Partnership Grants Awarded
Exhibit 5 State Energy Sector Partnership Grants Awarded

No. Organization Name                                                                   City        Amount
 1. Washington State Workforce Training and Education Coordinating Board                 WA     $      5,973,635
 2. Oregon State of Education (DBA) Department of Community Colleges and Workforce       OR     $      5,383,568
 3. Wisconsin Department of Workforce Development                                        WI     $      6,000,000
 4. Hawaii Department of Labor and Industrial Relations                                  HI     $      6,000,000
 5. Kansas Department of Commerce                                                        KS     $      5,999,890
 6. Nebraska Department of Labor                                                         NE     $      4,839,511
 7. Arizona Department of Economic Security                                              AZ     $      6,000,000
 8. State of California Employment Development Department                                CA     $      6,000,000
 9. State of Ohio                                                                        OH     $      6,000,000
10. Alaska Department of Labor and Workforce Development                                 AK     $      3,600,000
11. Colorado Department of Labor and Employment                                          CO     $      5,998,050
12. Minnesota Department of Employment and Economic Development                          MN     $      6,000,000
13. Nevada Department of Employment, Training and Rehabilitation                         NV     $      6,000,000
14. Idaho Department of Labor                                                            ID     $      5,991,184
15. Workforce West Virginia                                                              WV     $      6,000,000
16. New Mexico Department of Workforce Solutions                                         NM     $      5,999,989
17. Michigan Department of Energy, Labor & Economic Growth                               MI     $      5,819,999
18. Iowa Workforce Development                                                           IA     $      5,997,000
19. Utah Department of Workforce Services                                                UT     $      4,600,000
20. North Carolina Department of Commerce Division of Workforce Development              NC     $      5,976,512
21. Commonwealth of Massachusetts Executive Office of Labor and Workforce Development    MA     $      5,973,657
22. Missouri Division of Workforce Development                                           MO     $      6,000,000
23. Oklahoma Department of Commerce                                                      OK     $      6,000,000
24. Indiana Department of Workforce Development                                          IN     $      6,000,000
25. Alabama Department of Economic and Community Affairs (ADECA)                         AL     $      6,000,000
26. Arkansas Workforce Investment Board Department of Workforce Services                 AR     $      4,866,479
27. Education and Workforce Development Cabinet (Kentucky)                               KY     $      4,740,457
28. Illinois Department of Commerce and Economic Opportunity                              IL    $      6,000,000
29. New Jersey Department of Labor and Workforce Development                             NJ     $      6,000,000
30. Wyoming Department of Workforce Services                                             WY     $      4,495,704
31. Maryland Department of Labor, Licensing and Regulation                               MD     $      5,793,183
32. Commonwealth of Pennsylvania Department of Labor & Industry                          PA     $      6,000,000
33. Connecticut Employment and Training Commission                                       CT     $      3,360,000
34. South Dakota Department of Labor                                                     SD     $      2,500,000
                                                                                        Total   $    187,908,818




                                         Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                    29                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               30                  Draft Report No. 18-10-013-03-390
                                                                          Prepared by WithumSmith+Brown
                                             For the U. S. Department of Labor – Office of Inspector General

                                                                                                                      Exhibit 6
Healthcare, Other High-Growth & Emerging-Industry Grants Awarded
Exhibit 6 Healthcare, Other High-Growth & Emerging-Industry Grants Awarded
 No.		   Organization Name                                        National or Local                       State       Amount
  1. 	   Crowder College 	                                        Healthcare (Nursing, Allied Health)      MO     $    3,576,760
  2. 	   South Central College                                    Healthcare                               MN     $    4,506,101
  3. 	   University Behavioral Associates, Inc                    Healthcare (Home Health Aid) 	           NY     $    5,000,000
  4. 	   Louisiana Technical College Greater Acadiana Region      Transportation                           LA     $    4,859,040
  5. 	   Hudson Valley Community College                          Biotech/Bio-Manufacturing                NY     $    3,382,200
  6. 	   American Indian Opportunities Industrialization Center   Healthcare                               MN     $    5,000,000
  7. 	   Cincinnati State Technical and Community College         Healthcare                               OH     $    4,935,132
  8. 	   Fulton Montgomery Community College                      Healthcare (Nursing) 	                   NY     $    2,865,657
  9. 	   Indianapolis Private Industry Council, Inc.              Healthcare                               IN     $    4,885,812
 10. 	   MN State Colleges & Universities                         Healthcare (Nursing, Allied Health)      MN     $    4,230,950
         DBA Pine Technical College
 11. 	   Mt. San Antonio Community College District          Building Automation Systems                  CA      $     2,239,714
 12. 	   National Council of La Raza                         Healthcare (Nursing)                         DC      $     3,457,516
 13. 	   Northland Community and Technical College           Unmanned Aircraft Systems                    MN      $     4,996,844
 14. 	   Workforce Training and Education Coordinating Board Healthcare (Acute/Ambulatory Care)           WA      $     5,000,000
 15. 	   Youth Policy Institute (YPI)                        Healthcare (Allied Health,                   CA      $     3,623,473
                                                             Long-Term Care)
 16. 	   Workforce Investment Board of Herkimer, Madison and Healthcare                                    NY     $     2,700,096
         Oneida
 17.     Berea Children's Home 	                             Healthcare (Long-Term Care)                  OH      $     4,927,843
 18.     Full Employment Council                             Healthcare 	                                 MO      $     4,998,344
 19.     Los Rios Community College District                 Healthcare 	                                 CA      $     4,988,561
 20.     Maryville University - St. Louis 	                  Healthcare (Nursing)                         MO      $     4,699,354
 21.     Southern University at Shreveport 	                 Healthcare (Nursing, Allied Health)          LA      $     4,296,308
 22.     The University Of Texas Medical Branch at Galveston Healthcare (Nursing, Medical Assisting)      TX      $     4,655,799
 23. 	   San Diego State University Research Foundation      Biotech 	                                    CA      $     4,953,575
 24. 	   Providence Health Foundation of Providence Hospital Healthcare 	                                 DC      $     4,953,999
 25. 	   Macomb Community College                            Defense Acquisitions/Logisti
                                                                                      	   cs/Technology   MI      $     4,971,642
 26. 	   North Central Texas College                         Healthcare (Allied Health)                   TX      $     4,150,005
 27. 	   Kern Community College District                     Renewable Energy Generation/Distribution     CA      $     2,768,572
 28. 	   Governors State University                          Healthcare                                   IL      $     4,994,686
 29. 	   Maine Department of Labor                           Healthcare (Nursing, Allied Health)          ME      $     4,892,213
 30. 	   Nevada Cancer Institute                             Healthcare (Nursing, Allied Health)          NV      $     3,262,676
 31. 	   Shenandoah Valley Workforce Investment Board, Inc. Green Technology Manufacturing	               VA      $     4,951,991
 32. 	   Columbus State Community College                    Logistics                                    OH      $     4,605,303
 33.     	BioOhio                                            Bioscience/Biotech and Related Advanced      VA      $     5,000,000
                                                             Manufacturing
 34. 	   Centerstone                                         Healthcare                                   TN      $     5,000,000
 35.     Enterprise for Employment and Education             Healthcare 	                                 OR      $     2,373,073
 36.     Maysville Community and Technical College           Healthcare (Nursing) 	                       KY      $     2,007,637
 37.     Passaic County Community College                    Healthcare (Nursing, Allied Health)          NJ      $     4,475,041
 38.      San Jacinto Community College District             Petrochemical 	                              TX      $     4,722,919
 39.     The Community College of Baltimore County (CCBC) Healthcare 	                                    MD      $     4,928,654
 40.     Trident Technical College 	                         Healthcare (Nursing, Medical Assisting)      SC      $     2,624,532
 41.     University of New Hampshire 	                       Healthcare (Long-Term Care)                  NH      $     2,944,732
 42.      San Jose State University Research Foundation      Biotech/Biomedicine 	                        CA      $     5,000,000
 43.     San Bernardino Community College District           Logistics 	                                  CA      $     4,260,863
 44.     Ivy Tech Community Collge of Indiana                Advanced Manufacturing, Logistics, IT        IN      $     5,000,000




                                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                         31		                Draft Report No. 18-10-013-03-390
                                                                          Prepared by WithumSmith+Brown
                                             For the U. S. Department of Labor – Office of Inspector General

                                                                                                                  Exhibit 6
Healthcare, Other High-Growth & Emerging-Industry Grants Awarded (Continued)

 No.		   Organization Name                                    National or Local                       State       Amount
 45. 	   DeKalb Technical College                             Healthcare (EMT/Paramedic Technology)    GA     $    2,043,859
 46. 	   Montgomery Institute, The                            Healthcare (Nursing)                     MS     $    4,519,625
 47. 	   Calhoun Community College                            Energy Efficiency                        AL     $    3,470,830
 48. 	   Goodwill Industries, Inc., Serving E. Neb. And SW.   Insurance/Banking                        NE     $    2,007,846
         Iowa
 49.     Iowa Workforce Development                           Healthcare 	                             IA     $   3,403,164
 50.     Otero Junior College 	                               Healthcare (Nursing)                     CO     $   4,999,350
 51.     South Arkansas Community College                     Healthcare 	                             AR     $   3,520,612
 52.     Spanish Speaking Unity Council                       Healthcare 	                             CA     $   3,559,139
 53.     Mid-South Community College 	                        Aviation (Airframes/Power Plant)         AR     $   3,391,053
 54.     Florence-Darlington Technical College                Electric Power 	                         SC     $   4,346,351
 55.     The University of South Dakota                       Healthcare 	                             SD     $   5,000,000
                                                                                                      Total   $ 226,929,446




                                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                         32		                Draft Report No. 18-10-013-03-390
                                            Prepared by WithumSmith+Brown
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                          33                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               34                  Draft Report No. 18-10-013-03-390
                                                                   Prepared by WithumSmith+Brown
                                      For the U. S. Department of Labor – Office of Inspector General

                                                                                                 Appendix A
Background
Appendix A Background
The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of August 19, 2010, Congress provided $70.8 billion to DOL (See
Table 1 below.)

Table 1: Department of Labor Recovery Act Funding, as of August 19, 2010

                                                                             Amount a
Program                                                                     (millions)         Percent
Unemployment Insurance                                                        $65,996           93.17
Training and Employment Services                                                 3,950            5.58
State Unemployment Insurance and Employment
Service Operations                                                                  400           0.56
Community Service Employment
                        	    for Older Americans                                    120           0.17
National Emergency Grants for Health Insurance
Coverage                                                                             40           0.06
Job Corps                                                                           250           0.35
Departmental Management                                                               80          0.11 

Total                                                                          $70,836b         100.00 

a
  – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance
Coverage” were obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance” amount
was provided by the Office of the Assistant Secretary for Administration and Management, and includes amounts
made available for Federal and State Extended Benefits, Extension of Emergency Unemployment Compensation,
and Federal Additional Unemployment Compensation programs. The National Emergency Grants for Health
Insurance Coverage amounts were adjusted in United States Public Law 111-226 (HR1586).
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

The stated purposes of the Recovery Act are to:

    • 	 preserve and create jobs and promote economic recovery;
    • 	 assist those most impacted by the recession;
    • 	 provide investments needed to increase economic efficiency by spurring 

        technological advances in science and health; 

    • 	 invest in transportation, environmental protection, and other infrastructure that
        will provide long-term economic benefits; and stabilize state and local
        government budgets, in order to minimize and avoid reductions in essential
        services and counterproductive state and local tax increases.


                                      Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                                 35		                Draft Report No. 18-10-013-03-390
                                                          Prepared by WithumSmith+Brown
                             For the U. S. Department of Labor – Office of Inspector General

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent and recipients of these funds deliver programmatic results.

On April 3, 2009, the Office and Management and Budget (OMB) issued guidance,
Updating Implementation Guidance for the American Recovery and Reinvestment Act of
2009 (M-09-15), reinforcing the Administration's intent that Federal agencies award
Recovery Act funds responsibly and with transparency. Specifically, the guidance
directed Federal agencies to adhere to the following three principles in awarding grants
and contracts under the Recovery Act:

   • 	 Merit-based decision-making. Agencies should develop merit-based criteria to
       guide awarding grants, contracts, and other forms of Federal financial
       assistance.
   • 	 Long-term benefits. Agencies should support projects that have demonstrated or
       have potential to deliver programmatic results.
   • 	 Targeting assistance consistent with other policy goals. To the extent possible,
       agencies should include "additional policy" considerations when awarding
       Recovery Act funds. Examples include supporting projects that ensure
       compliance with equal opportunity laws, promote local hiring, and engage with
       community-based organizations.

DOL also issued guidance to its agencies on implementing and accounting for Recovery
Act activities including program administration, funding, and accomplishment of
Congressional requirements. DOL's Recovery Act website provides information on
these activities, as well as its periodic webinars and other informational forums, to
provide timely information to Recovery Act stakeholders concerning DOL's
responsibilities under the Act. DOL's Employment and Training Administration (ETA)
also maintains a website for its Recovery Act activities.

Workforce Investment Act Competitive Grants for High-Growth Workers

a) Training Grants for green jobs and Emerging-Industry Sectors

   Title VIII of the Recovery Act provided the Department of Labor $750 million in
   WIA funds to be awarded in competitive grants by the Employment and Training
   Administration for worker training and placement in high-growth and
   emerging-industry sectors. It requires that ETA award $500 million out of the $750
   million for research, labor exchange and job training projects for careers in green
   jobs.

   The Recovery act required that the $500 million be used as described in section
   171(e)(1)(B) of WIA. The Energy Independence and Security Act of 2007 created
   the Green Jobs Act of 2007 (§171(e)(1)(B)) and incorporated the language from the
   Energy Policy Act of 2005. The Green Jobs Act of 2007 defines green jobs as
   workplace activity that involves energy efficiency or renewable energy

                              Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                         36		                Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

manufacturing, installation and maintenance; building retrofits to improve energy
use, as well as energy assessments; deconstruction and materials re-use, and
manufacturing of sustainable products using sustainable processes. The Energy
Policy Act of 2005 (§203(b)(2)) defines renewable energy as electric energy
generated from solar, wind, biomass, landfill gas, ocean (including tidal, wave,
current, and thermal), geothermal, municipal solid waste, or new hydroelectric
generation capacity achieved from increased efficiency or additions of new capacity
at an existing hydroelectric project.

In awarding the remaining $250 million, the Department must give priority to careers
in the health care sector. The Recovery Act required the Department of Labor to
award these grants no later than June 30, 2010.

Of the $750 million, DOL had awarded grants totaling $717 million in time to be
included in our review.

ETA Awarded Funds in Separate Competitions

ETA issued Training and Employment Notice (TEN) 44-08 on May 15, 2009,
"American Recovery and Reinvestment Act of 2009 (Recovery Act) Competitive
Grants for Green Jobs Training." The TEN provided a discussion of funding
opportunities, and explained the agency planned to award the $750 million through
several competitions. Overall, the purpose of the grants is to help individuals
impacted by the recession by providing training and employment in high-growth and
emerging-industries in both green and health care industries.

Between June 4, 2009, and July 22, 2009, ETA issued six separate SGAs related to
the $717 million that had been awarded in time to be included in our review. The
table below lists the separate competitions comprising the $717 million.

Competitive Grant Programs

Title                                                       Opened              Closed

Green Jobs:
Pathways Out of Poverty (SGA/DFA PY 08-19)
and Amendments One and Two                                June 24, 2009    September 29, 2009
State Labor Market Information Improvement
(SGA/DFA PY 08-17) and Amendment One                      June 24, 2009     August 14, 2009
Energy Training Partnership (SGA/DFA PY 08-18)
and Amendment One                                         June 24, 2009    September 4, 2009
Green Capacity Building (SGA/DFA PY 08-21)
and Amendment One                                         June 24, 2009      August 5, 2009
State Energy Sector Partnership & Training
(SGA/DFA PY 08-20) and Amendment One                      June 24, 2009     October 20, 2009

Health Care and Other High-Growth:
Health Care Sector and Other High-Growth &   

Emerging-Industries (SGA/DFA PY 09-01)                    July 22, 2009     October 5, 2009 




                                Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                           37                  Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               38                  Draft Report No. 18-10-013-03-390
                                                            Prepared by WithumSmith+Brown
                               For the U. S. Department of Labor – Office of Inspector General

                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objectives

Our audit objectives were to determine if:

   (1) 	 ETA used merit-based selection criteria, as required by OMB, in awarding $717
         million in Recovery Act funds for competitive grants for worker training and
         placement in high-growth and emerging-industry sectors.

   (2)   ETA considered “a demonstrated or potential ability to deliver programmatic
         results,” in awarding competitive grants under the Recovery Act, as required by
         OMB Memo M-09-15.

   (3) 	 ETA’s guidance during grant solicitation and post-solicitation activities 

         addressed Congress’ requirements regarding use of these funds. 


   (4) 	 Grant agreements required adherence to Recovery Act reporting and tracking
         requirements.

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We conducted our fieldwork at the ETA National Office in
Washington, D.C. and interviews of the FPOs in the six Regional Offices.

The audit included a review of grant documents and data available from ETA’s Office of
Workforce Investment, Office of Policy, Development & Research and the Office of
Regional Management, as well as external sources. The audit included a random
sample of all grants made under the six competitive grant solicitations. The audit also
included structured interviews conducted with 34 FPOs administered on a nationally
projectable statistical sampling basis to grant monitors responsible for oversight of the
Recovery Act competitive grants awarded for worker training and placement in
high-growth and emerging-industry sectors. The audit work was completed in
September 2010.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act.
We conducted interviews with ETA officials from the Office of Workforce Investment,
Office of Policy, Development & Research and the Office of Regional Management to


                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          39 	                Draft Report No. 18-10-013-03-390
                                                           Prepared by WithumSmith+Brown
                              For the U. S. Department of Labor – Office of Inspector General

gain an understanding of the grant award and monitoring processes. Policies and
procedures followed by ETA during the grant selection process were reviewed.

For each of the six grant programs, we interviewed the grant officers and reviewed the
SGA’s selection criteria. We reviewed the grant selection memos and interviewed the
grant officers to gain an understanding of the award process and the selection
methodology. We reviewed the SGAs to ensure Recovery Act reporting requirements
were included in the solicitations.

We randomly sampled 45 of the 244 competitive grants awarded across the six grant
programs included in our audit. Based on the sample, we found a zero percent error
rate and stopped our sampling. We would expect that, had we continued our sample,
we would have found a similar error rate throughout the universe. To assess the use of
merit-based criteria and ETA’s consideration of the applicants demonstrated or potential
ability to deliver programmatic results, we reviewed the panel documentation applicable
to the grants in our sample to determine whether panel results (ranking scores) were
utilized in the final selection.

To gain a better understanding of the post-solicitation activities for the six Recovery Act
projects noted above, from the universe of 244 grants we statistically sampled 63 grants
with a 95% confidence level. The random statistical sample by region is projectable
nationally and included a total of 34 FPOs. We interviewed the 34 FPOs to gain a better
understanding of the monitoring activities and policies and procedures. Therefore, we
project our finding in the report to indicate that all FPOs in the Department performing
monitoring activities on the grants included in our universe on any of the grant programs
(Pathways Out of Poverty, State Labor Market Information Improvement, Energy
Training Partnership, Green Capacity Building, State Energy Sector Partnership &
Training, and the Health Care Sector and Other High-Growth & Emerging-Industries)
would have had the same experience as the results reflected in the finding.

Examples of the audit results and the relevance of the tests to the audits’ objectives are
provided in the body of the report.

Criteria

We used the following criteria to accomplish our audit:

   • 	 American Recovery and Reinvestment Act of 2009, dated February 17, 2009
   • 	 Green Jobs Act of 2007, dated December 19, 2007
   • 	 Energy Policy Act of 2005, dated August 8, 2005
   • 	 Workforce Investment Act of 1998, as amended, dated August 7, 1998
   • 	 Workforce Investment Act Regulations – 20 CFR 660 through 667, dated 

       August 11, 2000 

   • 	 Office of Management and Budget (OMB) Memorandums:

                               Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                          40		                Draft Report No. 18-10-013-03-390
                                                     Prepared by WithumSmith+Brown
                        For the U. S. Department of Labor – Office of Inspector General

      o		 M-09-10: Initial Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009, dated February 18, 2009
      o		 M-09-15: Updated Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009, dated April 3, 2009
      o		 M-09-21: Implementing Guidance for the Reports on Use of Funds
          Pursuant to the American Recovery and Reinvestment Act of 2009, dated
          June 22, 2009
• 	 Training and Employment Guidance Letter No. 14-08 (TEGL 17-08), dated
    March 18, 2009
• 	 Training and Employment Notice No. 44-08 (TEN 44-08), dated May 15, 2009
• 	 Training and Employment Notice No. 30-08 (TEN 30-08), dated March 4, 2009
• 	 Training and Employment Notice No. 3-09 (TEN 6-09), dated August 11, 2009
• 	 Employment and Training Order No. 1-08 (ETO 1-08), dated June 18, 2008




                         Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                    41		                Draft Report No. 18-10-013-03-390
                                 Prepared by WithumSmith+Brown
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               42                  Draft Report No. 18-10-013-03-390
                                                          Prepared by WithumSmith+Brown
                             For the U. S. Department of Labor – Office of Inspector General

                                                                               Appendix C
Acronyms and Abbreviations
Appendix C Acronyms and Abbreviations
Recovery Act   American Recovery and Reinvestment Act of 2009
DOL            Department of Labor
ETA            Employment and Training Administration
ETO            Employment and Training Order
FPO            Federal Project Officer
FY             Fiscal Year
FTE            Full-time Equivalent
OFAM           Office of Financial and Administrative Management
OIG            Office of Inspector General
OMB            Office of Management and Budget
OPDR           Office of Policy Development and Research
ORM            Office of Regional Management
OTAA           Office of Trade Adjustment Assistance
RAD            Recovery Act Data
SGA            Solicitation for Grant Application
TEN            Training and Employment Notice
UI             Unemployment Insurance
WS+B           WithumSmith+Brown
WIA            Workforce Investment Act




                             Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                        43                  Draft Report No. 18-10-013-03-390
                                Prepared by WithumSmith+Brown
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               44                  Draft Report No. 18-10-013-03-390
                                                      Prepared by WithumSmith+Brown
                         For the U. S. Department of Labor – Office of Inspector General

                                                                          Appendix D
ETA Response to Draft Report




                         Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
                                    45                  Draft Report No. 18-10-013-03-390
                             Prepared by WithumSmith+Brown
For the U. S. Department of Labor – Office of Inspector General




Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
           46                  Draft Report No. 18-10-013-03-390
                             Prepared by WithumSmith+Brown
For the U. S. Department of Labor – Office of Inspector General




Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
           47                  Draft Report No. 18-10-013-03-390
                             Prepared by WithumSmith+Brown
For the U. S. Department of Labor – Office of Inspector General




Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
           48                  Draft Report No. 18-10-013-03-390
                                Prepared by WithumSmith+Brown
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





    Recovery Act: ETA WIA Competitive Grants for High-Growth Workers
               49                  Draft Report No. 18-10-013-03-390
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT: 


Online: 	   http://www.oig.dol.gov/hotlineform.htm
Email: 	    hotline@oig.dol.gov

Telephone: 	 1-800-347-3756
             202-693-6999

Fax:        202-693-7020

Address:    Office of Inspector General
            U.S. Department of Labor
            200 Constitution Avenue, N.W.
            Room S-5506
            Washington, D.C. 20210
